                             OFFICE OF
                      THE INSPECTOR GENERAL

                          U.S. NUCLEAR
                     REGULATORY COMMISSION




                      Review of Materials Licensee Fees

                      OIG-02-A-07     December 26, 2001




                          AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
                     http://www.nrc.gov/NRC/OIG/index.html
                                              December 26, 2001




MEMORANDUM TO:                 Jesse L. Funches
                               Chief Financial Officer

                               William D. Travers
                               Executive Director for Operations



FROM:                          Stephen D. Dingbaum/RA/
                               Assistant Inspector General for Audits


SUBJECT:                       REVIEW OF MATERIALS LICENSEE FEES (OIG-02-A-07)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Review of Materials
Licensee Fees.

Overall, OIG found that NRC has made some adjustments in direct program staff to reflect the
continuing loss of materials licensees. However, NRC has not adequately addressed its non-
direct cost components: program overhead, management and support costs, and surcharge
costs, which comprise approximately 60 percent of the materials fees. Without significant
reductions in both direct and non-direct costs, the agency will not be able to stabilize or reduce
materials fees. As a result, NRC needs to ensure that its cost accounting capabilities can
directly trace overhead costs to all agency programs, and that NRC offices conduct a
disciplined evaluation to determine that their activities are necessary, efficient, and effective in
support of the agency’s mission.

At an exit conference on November 7, 2001, agency managers generally agreed with the
report’s findings and recommendations. Agency comments provided prior to, and subsequent
to, the exit conference have been incorporated where appropriate. In addition, on
December 20, 2001, the Chief Financial Officer submitted a formal, written response for
inclusion in this report (see Appendix D).

If you have any questions, please contact Bill McDowell at 415-5974 or me at 415-5915.

Attachment: As stated

cc:     John Craig, OEDO
R. McOsker, OCM/RAM
B. Torres, ACMUI
B. Garrick, ACNW
D. Powers, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
S. Reiter, CIO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDR/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
R. Borchardt, NRR
G. Caputo, OI
P. Bird, HR
I. Little, SBCR
M. Virgilio, NMSS
S. Collins, NRR
A. Thadani, RES
P. Lohaus, OSP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, RES
J. Johnson, NRR
H. Miller, RI
L. Reyes, RII
J. Dyer, RIII
E. Merschoff, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
                                                                  Review of Materials Licensee Fees


EXECUTIVE SUMMARY

BACKGROUND

      A 1959 amendment to the Atomic Energy Act of 1954 allowed states to regulate most
      radioactive materials by entering into an agreement with the U.S. Atomic Energy
      Commission (AEC). Today, the U.S. Nuclear Regulatory Commission (NRC), a
      successor to AEC, oversees 32 Agreement States. As a result of the increase in the
      number of Agreement States, the number of materials licensees regulated by NRC has
      decreased from more than 9,000 to about 5,000.

      The Independent Offices Appropriation Act of 1952 states that independent Federal
      agencies should be self-sustained by establishing “fair” fees for the services they
      provide. In 1990, Congress passed the Omnibus Budget Reconciliation Act (OBRA)
      that required NRC to recover approximately 100 percent of its budget, which the agency
      recoups by charging direct and annual fees to its licensees. A recent amendment to
      OBRA reduces NRC’s fee recovery requirement to 98 percent for fiscal year (FY) 2001,
      and authorizes a 2 percent recovery decrease each year until FY 2005, when NRC’s fee
      recovery requirement will be approximately 90 percent.

      Licensees, industry representatives, and NRC staff have expressed a number of
      concerns about materials fees. For instance, the financial impact on licensees if
      materials fees significantly increase could have a spiral effect. In other words, higher
      fees may cause more licensees to forego their licenses, thereby increasing the financial
      impact on those who remain which, in turn, may lead to additional losses of licensees.

PURPOSE

      The objective of this audit was to determine whether NRC is adjusting its resources and
      operations to reflect the projected loss of additional materials licensees.

RESULTS IN BRIEF

      NRC has made some adjustments in direct program full-time equivalents (FTE) to
      reflect the continuing loss of materials licensees. However, NRC has not adequately
      addressed its non-direct cost components: program overhead, management and
      support costs, and surcharge costs. Two primary factors contribute to this situation.
      First, because NRC’s cost accounting process does not directly trace overhead costs to
      its programs, the true costs of NRC’s materials program cannot be identified. Second,
      most agency offices have not thoroughly examined the need for their activities that
      support the materials arena. Implementation of these two actions would provide added
      assurance that materials fees reflect services that benefit only materials licensees.




                                              i
                                                                  Review of Materials Licensee Fees

RECOMMENDATIONS

     OIG recommends that the Chief Financial Officer:

            1.      Continue to develop and implement NRC’s cost accounting capabilities to
                    enable the direct tracing of overhead costs to all agency programs.

     and, that the Executive Director for Operations, in coordination with the Chief Financial
     Officer:

            2.      Require NRC offices to conduct the Planning, Budgeting, and
                    Performance Management process, or similar disciplined evaluation, to
                    determine that their activities are necessary, efficient, and effective in
                    support of the agency’s mission.

AGENCY COMMENTS

     At an exit conference on November 7, 2001, agency managers generally agreed with
     the findings and recommendations contained in the draft report. On December 20,
     2001, the Chief Financial Officer submitted written comments to OIG’s draft report (see
     Appendix D). The CFO generally agreed with the report and provided additional
     perspectives that are discussed on page 13.




                                              ii
                                                         Review of Materials Licensee Fees


ABBREVIATION AND ACRONYM LIST

Act              Atomic Energy Act of 1954
AEC              U.S. Atomic Energy Commission
CFO              Chief Financial Officer
CRDS             Controller Resource Database System
EDO              Executive Director for Operations
FASAB            Federal Accounting Standards Advisory Board
FTE              full-time equivalent
FY               fiscal year
G&A              general & administrative
GPRA             Government Performance and Results Act of 1994
HR               Office of Human Resources
IOAA             Independent Offices Appropriation Act of 1952
NMPWG            National Materials Program Working Group
NMSS             Office of Nuclear Material Safety and Safeguards
NRC              U.S. Nuclear Regulatory Commission
OBRA-90          Omnibus Budget Reconciliation Act of 1990
OCFO             Office of the Chief Financial Officer
OEDO             Office of the Executive Director for Operations
OIG              Office of the Inspector General
PBPM             Planning, Budgeting, and Performance Management
RES              Office of Nuclear Regulatory Research
SFFAS            Statement of Federal Financial Accounting Standards




                                   iii
                                   Review of Materials Licensee Fees




[Page intentionally left blank.]




              iv
                                                                               Review of Materials Licensee Fees


TABLE OF CONTENTS

        EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

        ABBREVIATION AND ACRONYM LIST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

        III.     BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

        II.      PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

        III.     FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

                 A.        NRC PROJECTS SOME ADJUSTMENTS IN DIRECT FTE TO
                           REFLECT ANTICIPATED LOSSES OF MATERIALS
                           LICENSEES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                 B.        NRC CANNOT IDENTIFY THE ACTUAL TIME SPENT
                           SUPPORTING THE MATERIALS PROGRAM BY NON-DIRECT
                           STAFF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                 C.        MOST AGENCY OFFICES HAVE NOT THOROUGHLY
                           EXAMINED THE EFFICIENCY AND EFFECTIVENESS OF
                           THEIR ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

        IV.      CURRENT MANAGEMENT ACTION . . . . . . . . . . . . . . . . . . . . . . . . . 11

        V.       CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

        VI.      RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

        VII.     AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

        VIII.    OIG RESPONSE TO AGENCY COMMENTS . . . . . . . . . . . . . . . . . . 13

        APPENDICES

                 A.        SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . 14

                 B.        MATERIALS PROGRAM COSTS . . . . . . . . . . . . . . . . . . . . . . 16

                 C.        RECENTLY COMPLETED AGENCY FEE ASSESSMENTS . . 18

                 D.        COMMENTS FROM THE CHIEF FINANCIAL OFFICER . . . . 20




                                                   v
                                   Review of Materials Licensee Fees




[Page intentionally left blank.]




              vi
                                                                             Review of Materials Licensee Fees


I. BACKGROUND

             Under the Atomic Energy Act of 1954 (Act), Congress gave the U.S. Atomic
             Energy Commission (AEC) the authority to regulate the use of source material,
             by-product material, and special nuclear material in the United States. These
             materials are used for a multitude of medical, academic, and industrial purposes.
             A 1959 amendment to the Act allowed states to regulate the use of most
             radioactive material by entering into an agreement with the AEC. The U.S.
             Nuclear Regulatory Commission (NRC), a successor to AEC, retains an
             oversight role to ensure the consistent protection of public health and safety.

                      NRC’s Licensees Reduced by Addition of Agreement States

             In 1962, Kentucky became the first Agreement State. Today, NRC has
             agreements in place with 32 states. The addition of Agreement States
             significantly impacted the size of NRC’s materials program by reducing the
             number of material licensees to be regulated by the agency. For example, in
             1965, AEC regulated more than 9,000 licensees. Currently, NRC exercises
             regulatory authority over about 5,000 materials licensees throughout the U.S., as
             well as the territories of Puerto Rico, Guam, and the Virgin Islands. The 32
             Agreement States currently regulate more than 16,000 material licensees.
             Three more States (Pennsylvania, Wisconsin, and Minnesota) have stated their
             intent to become Agreement States. If all three achieve Agreement State status,
             the number of materials licensees regulated by NRC will decline another 20
             percent to about 4,000.(1)

                      Legislation Requires Fee Recovery

             The Independent Offices Appropriation Act (IOAA) of 1952 states that services
             provided by independent Federal agencies should be self-sustaining to the
             extent possible. IOAA further states that agencies may prescribe regulations
             establishing fees for its services based on: fairness, the costs to the
             Government; the value of the service or thing to the recipient; public policy or
             interest served; and other relevant facts.

             The Omnibus Budget Reconciliation Act of 1990 (OBRA-90) required NRC to
             recover approximately 100 percent of its budget authority through user fees. A
             recent amendment to OBRA-90 reduces NRC’s fee recovery requirement to 98
             percent for fiscal year (FY) 2001.(2) The amendment also authorizes a 2 percent
             recovery decrease each year until FY 2005, when NRC’s fee recovery
             requirement will be approximately 90 percent.(3)

1
    NRC retains regulatory authority over certain categories of materials licenses within the Agreement States,
    such as licenses held by other Federal facilities and special nuclear materials.
2
    Less the Nuclear Waste Fund and General Fund appropriations.
3
    NRC will request increased appropriations from the General Fund each year to offset the eventual 10%
    reduction.

                                                     1
                                                                              Review of Materials Licensee Fees



             To meet these legislative requirements, NRC assesses two types of fees: fees
             for services, established at 10 CFR(4) Part 170; and annual fees established at
             10 CFR Part 171 (see Appendix B). owever, for streamlining purposes,
             materials users class of licensees pays only annual fees, with the exception of
             an application fee assessed under 10 CFR Part 170. Therefore, annual fees for
             most materials licensees include both Part 170 and 171 charges

                      Impact of Fee Recovery Requirement

             The OBRA-90 requirement to collect fees resulted in a significant reduction in
             the number of materials licenses as licensees consolidated multiple licenses and
             terminated others rather than retain them for a fee. The fee recovery
             requirement continues to impact materials licensees today. For example,
             licensees express concerns to agency managers and industry representatives
             about (1) the negative financial impact of current fees and (2) the potential
             added financial strain on their operations if fees increase in the classes or
             subclasses of materials licenses which continue to lose licensees. Also, an
             industry group considers the agency’s fee methodology to be non-transparent.
             As a result, the group questions how NRC allocates the non-direct(5) portion of
             the annual fees. For further discussion of these costs, see Appendix B.

             Finally, agency staff have expressed concerns about the spiral impact on the
             materials program if agency costs affecting fees cannot be controlled or
             reduced. Specifically, materials licensees bear a portion of the agency’s costs.
             The number of licensees in a class is one factor in determining the annual fees
             for individual licensees. Therefore, if agency costs continue to increase, the
             financial impact may cause licensees in certain classes to forego their licenses,
             thereby increasing the fees of the remaining licensees and further reducing the
             materials program.

             Since 1999, the agency has undertaken several assessments of the fees
             charged to its materials licensees. Three of these reports are summarized in
             Appendix C. NRC found that increases in the number of Agreement States, and
             subsequent reductions in the number of fee-paying licensees, are significant
             factors that can increase annual fees charged to materials licensees.
             Additionally, two of the three assessments concluded that significant reductions
             would be needed in direct and/or non-direct costs to control or reduce materials
             fees. However, the Office of the Inspector General (OIG) believes that, to date,
             overall agency costs have not been adequately scrutinized.




4
    CFR stands for Code of Federal Regulations.
5
    Because NRC staff use various terms in discussing budget components, this report uses the term “non-
    direct” to mean all costs affecting materials fees other than direct program costs (i.e., program overhead,
    management and support costs, and surcharge).

                                                     2
                                                                            Review of Materials Licensee Fees

                      Nuclear Materials Safety Arena

             The agency’s materials program falls primarily within the scope of the Nuclear
             Materials Safety strategic arena, which encompasses NRC’s fuel cycle and other
             nuclear materials activities. For FY 2001, there are 377 full-time equivalents
             (FTE) and approximately $52 million budgeted for the materials arena. The
             Office of Nuclear Material Safety and Safeguards (NMSS) has the primary
             responsibility for carrying out the mission of the agency’s materials program.


II. PURPOSE

             OIG conducted this review due to the continued importance of NRC’s materials
             program. Additionally, in their January 2001 report on major management
             challenges, the U.S. General Accounting Office identified a number of questions
             NRC needs to address regarding its future role in overseeing materials licensees
             given the expected increase in the number of Agreement States. Around the
             same time, a member of the Commission asked OIG to provide input on this
             issue.

             The objective of this audit was to determine whether NRC is adjusting its
             resources and operations to reflect the projected loss of additional materials
             licensees. Appendix A contains additional information regarding the scope(6) and
             methodology of this review.


III. FINDINGS

             NRC has made some adjustments in direct program FTE to reflect the continuing
             loss of materials licensees. However, NRC has not adequately addressed its
             non-direct cost components: program overhead, management and support
             costs, and surcharge. Two primary factors contribute to this situation. First,
             because NRC’s cost accounting process does not directly trace overhead costs
             to its programs, the true costs of NRC’s materials program cannot be identified.
             Second, most agency offices have not thoroughly examined the need for their
             activities that support the materials arena. Implementation of these two actions
             would provide added assurance that materials fees reflect services that benefit
             only materials licensees.




6
     Contract and Nuclear Waste Safety arena costs are not addressed in this review.

                                                    3
                                                                              Review of Materials Licensee Fees

    A. NRC PROJECTS SOME ADJUSTMENTS IN DIRECT FTE TO REFLECT
       ANTICIPATED LOSSES OF MATERIALS LICENSEES


            Program direct charges(7) are for duties performed in pursuit of the agency’s
            principal mission, including licensing, inspections, investigations, and legal
            reviews. NMSS is the primary office allocating direct staff, from Headquarters
            and the Regions, to the materials arena. However, offices external to NMSS,
            such as Investigations, Enforcement, Nuclear Regulatory Research (RES),
            General Counsel, and Human Resources (HR), also allocate direct FTE to
            NRC’s materials arena.

            The level of NMSS direct program FTE in the materials arena has declined as a
            result of the loss of several thousand materials licensees, primarily to Agreement
            States, over the last decade. NRC expects the addition of three more
            Agreement States over the next 3 years, resulting in an additional loss of
            approximately 1,000 licensees. NMSS managers contend that the number of
            licensees clearly affects certain direct program activities, such as inspections
            and processing licensing actions. As a result, NMSS can anticipate and plan for
            expected decreases in its workload resulting from the projected loss of additional
            materials licensees. Additionally, NMSS credits the use of the agency’s
            Planning, Budgeting, and Performance Management (PBPM) process for
            identifying efficiencies and prioritizing activities in the materials program. The
            agency’s PBPM process is discussed further in Section C of this report.

            Certain materials program direct activities, e.g., rulemaking, must be performed
            regardless of the number of total materials licensees. However, other activities
            carried out by these offices, such as investigations, legal reviews, and
            enforcement actions, could be expected to decrease due to a reduced number of
            materials licensees. Overall, offices external to NMSS do not expect reductions
            in FTE commensurate with a shrinking materials program. The materials
            program is a complex area with many interrelationships between the number of
            materials licensees and the costs of provided services. Thus, the agency should
            continue to develop and implement its cost accounting capabilities to enable
            direct tracing of all costs associated with the materials program, and implement
            the PBPM process, or a similar disciplined evaluation of office activities.


    B. NRC CANNOT IDENTIFY THE ACTUAL TIME SPENT SUPPORTING THE
       MATERIALS PROGRAM BY NON-DIRECT STAFF


            The number of FTE allocated to the materials arena continues to decline,
            primarily from reductions in NMSS direct FTE. Consequently, program overhead
            that support the direct FTE should also decline. In addition, significant


7
    Includes non-supervisory professional FTE, and direct contractor costs.

                                                   4
                                                                               Review of Materials Licensee Fees

              reductions in the amount of management and support costs allocated to
              materials fees are needed to stabilize or reduce materials fees. However, few, if
              any, reductions are occurring in these non-direct costs.

              Need for Cost Accounting

              According to the Federal Accounting Standards Advisory Board (FASAB),
              reliable and relevant cost information is indispensable for implementing the
              requirements of the Government Performance and Results Act (GPRA).(8)
              Additionally, FASAB’s Statement of Federal Financial Accounting Standards
              (SFFAS) No. 4, Managerial Cost Accounting Standards, states that cost
              information is an important basis for setting fees. Assignment of costs could be
              developed by directly tracing costs to outputs or by allocating costs on a
              reasonable and consistent basis in order to promote efficient distribution of
              resources. This standard also states that each agency should accumulate and
              report the costs of its activities on a regular basis for management information
              purposes.

              For FY 1998 through FY 2000, OIG reported(9) that NRC had not implemented a
              managerial cost accounting system as required by SFFAS No. 4. In response to
              these reports, the agency developed a remediation plan, which has been revised
              to establish FY 2002 as the date for full implementation of its managerial cost
              accounting system.

              Examination of Overhead Charges Needed

              NRC’s FY 2000 Strategic Plan states, “Costs associated with the regulatory
              infrastructure must be fair, equitable, and shared by all users.” In FY 1999, NRC
              allocated $65 million in budgeted costs to be recovered through fees for services
              and annual fees from the various classes of materials licensees. As shown in
              Chart 1, 60 percent ($39 million) of these fees were for non-direct costs, of which
              approximately 16 percent represented program overhead (indirect FTE and
              related costs). The other 44 percent represented management and support FTE
              [agency overhead and general & administrative (G&A) costs], and the
              surcharge.(10) See Appendix B for further explanation of non-direct costs.




8
     In 1993, Congress passed GPRA which mandates Federal agencies to measure performance.
9
     OIG/98A-09, dated March 1, 1999, OIG/99A-12, dated February 28, 2000, and OIG/01A-06, dated March 1,
     2001, re: Independent Auditors’ Report and Principal Statements
10
     Surcharge costs are for activities which do not directly benefit agency licensees (see p. 16).

                                                       5
                                                                                   Review of Materials Licensee Fees

CHART 1
                          C om p onents of A llocated C osts
                         to M aterials Licensees - F Y 1999

                                                    D irec t C os ts (40.3% )




                          G& A* (31.8% )                       S urc harge* (12.2% )


                                                    Indirec t C os ts * (15.7% )




                *Components of non-direct charges
                 Data Source: SECY-01-0104, June 12, 2001




     NMSS managers assert their sensitivity to the issue of fairness and
     reasonableness of materials fees. Their concerns prompt a continual search for
     further efficiencies in performing activities and processes, and for possible
     reductions of program overhead staff. However, NMSS managers do not expect
     a reduction in the overall number of overhead FTE in the materials arena.

     Given projected reductions in the number of materials licensees and direct
     program FTE, it is reasonable to expect downward adjustments in the rest of the
     agency’s offices supporting the materials arena unless they can demonstrate
     new responsibilities. Although portions of agency-wide FTE costs are
     apportioned to materials licensees in their annual fees, no projected overall
     decreases in management and support FTE by are expected by FY 2004.

     In order for the agency to systematically stabilize or reduce materials licensees’
     fees, all components that affect the fees must be examined. However, NRC has
     not fully implemented a cost accounting process that would provide needed data
     for such a review. Consequently, the agency does not have information
     necessary to determine whether the efforts of non-direct staff allocated to the
     materials program bear a reasonable relationship to program outputs and
     objectives. Absent an effective cost accounting process, the agency cannot
     assess the effect of non-direct costs on, or ensure that costs billed to, materials
     licensees reflect the actual costs of NRC’s materials program. Without
     stabilizing these costs, an increase in the non-direct components of the annual
     fees is expected, which will be borne by fewer materials licensees.




                                             6
                                                          Review of Materials Licensee Fees

C. MOST AGENCY OFFICES HAVE NOT THOROUGHLY EXAMINED THE
EFFICIENCY AND EFFECTIVENESS OF THEIR ACTIVITIES


     According to the agency’s Principles of Good Regulation, licensees are entitled
     to the best possible management and administration of regulatory activities.
     This guidance also states that NRC must establish a means to evaluate and
     continually upgrade its regulatory capabilities and use minimal resources where
     possible. Because portions of the agency’s non-direct costs are allocated to
     materials licensees’ fees, NRC needs to ensure that these costs are thoroughly
     examined. However, most agency offices have not conducted a thorough,
     disciplined examination of their activities. As a result, while agency overhead
     and surcharge costs have been reviewed to a limited extent, they have not been
     scrutinized to identify maximum efficiencies.

     Size of Infrastructure Impacts Materials Fees

     Multiple factors significantly impact materials fees. For example, the number of
     staff allocated to the materials arena, as well as the costs associated with the
     size of the agency’s infrastructure (i.e., agency overhead and operational
     expenses) are factored into materials fees. As previously stated, the declining
     number of materials licensees, and identified efficiencies, have resulted in a
     significant reduction of direct materials program FTE. However, there has been
     no comparable review of management and support offices, whose costs are
     apportioned to the materials program.

     Agency executives state that it is important to know how the services provided by
     the agency’s management and support offices are linked to the agency’s
     mission. Therefore, there should be a mechanism that enables management
     and support office employees to identify their efforts to support the materials
     program. Such a mechanism would provide senior agency managers with
     valuable planning information to identify opportunities for increased efficiencies.

     Some efficiencies have been gained in individual offices through informal
     assessments. However, there have been no agency-wide, systematic reviews of
     activities and organizational structures to identify ways to reduce costs for the
     materials program. According to a senior official in the Office of the Executive
     Director for Operations (OEDO), to make intelligent adjustments and gain
     efficiencies, the agency needs an overall picture of all tasks being performed and
     a determination of how critical each task is to the agency’s mission. Other senior
     managers agree it is important for evaluations of the activities conducted by
     each office to identify opportunities for increased efficiencies and link agency
     support office activities to the mission of the strategic arenas. Although the
     agency has a mechanism to conduct such evaluations, its use has been limited.
     Without such scrutiny, the agency cannot ascertain the appropriate level of effort
     necessary to support a smaller number of direct program staff.




                                      7
                                                                          Review of Materials Licensee Fees

             Agency’s PBPM Process Not Fully Implemented

             GPRA mandates that Federal agencies measure performance. Additionally,
             NRC’s FY 2000 Strategic Plan states that the agency will ensure that goals,
             measures, strategies, and the work to be accomplished for the agency are
             aligned and logically linked. The PBPM process is NRC’s primary tool for
             assessing its performance management and fiscal accountability. The PBPM
             process provides a disciplined, integrated method for identifying how program
             activities are linked to NRC’s strategic goals and what resources are necessary
             to accomplish those activities. However, agency managers acknowledge that
             PBPM could use further refinements and that it may not provide sufficient levels
             of detail. Even with these limitations, PBPM provides valuable planning
             information for agency managers.

             In a 1999 study,(11) the Office of the Chief Financial Officer (OCFO)
             recommended the agency staff use the PBPM process to analyze materials and
             waste arenas costs, as well as agency management and support costs, that
             affect materials license annual fees to determine whether these costs could be
             reduced. The Chief Financial Officer (CFO) noted that, absent legislative relief, it
             appears that only reductions in overall agency costs that are included in
             materials fees would result in mitigating user fee consequences of a shrinking
             licensee universe. According to the CFO, overseer of the PBPM process,
             eventually all agency offices need to embrace the concepts of the PBPM
             process.

             When initiated in 1997, it was anticipated that agency-wide implementation of
             PBPM would be accomplished in 2 to 3 years. Subsequently, NRC listed the full
             implementation of the PBPM process as a corporate management strategy in its
             FY 2000 Strategic Plan. However, as of today, only the Offices of NMSS,
             Nuclear Reactor Regulation, and RES, have conducted PBPM reviews and the
             PBPM process was recently piloted by HR, a support organization. In addition,
             there is no date for agency-wide implementation of the PBPM process.

             NMSS’ use of the agency’s PBPM process has been credited for identifying
             efficiencies in the materials program and providing effective resource
             management. According to NMSS managers, the use of the PBPM process
             requires a detailed, structured analysis and prioritization of each activity included
             in a program office. The PBPM process has provided NMSS management with
             valuable information resulting in a more efficient justification and allocation of
             their budget and resources and should result in decrease in program direct FTE
             by FY 2004.

             In contrast, there will be an overall increase in direct FTE charged by the nine
             offices external to NMSS, despite continued reductions in the number of



11
     OCFO report, Alternatives to Escalating Fees Associated with Decreasing Numbers of Licensees, dated
     December 1999.

                                                   8
                                                                          Review of Materials Licensee Fees

             materials licensees. Of these nine, only two, RES and HR,(12) have implemented
             the PBPM process to any degree. Additionally, despite having less direct
             materials staff to support, NRC projects an FTE decrease in only one of the four
             management and support functions. Despite HR’s recent pilot of PBPM, other
             management and support offices have not implemented the PBPM process. As
             stated above, HR recently finished a PBPM pilot program. Senior HR managers
             found the process valuable for a number of reasons. For example, the PBPM
             process prompted thorough discussions of HR activities and has resulted in
             process reviews. In fact, HR staff found that they were able to identify
             performance efficiencies for some activities and mark other activities for
             elimination. In addition, each activity was prioritized from the perspective of how
             tasks performed support the agency’s mission or fulfills other requirements. HR
             managers encountered some difficulty in applying the process to their support
             organization. One senior manager considers PBPM a “work-in-progress,” yet
             still strongly recommends implementing the PBPM process for all management
             and support offices to determine how each enhances the agency’s mission.

             Some offices which have not yet implemented the PBPM process have identified
             efficiencies through informal assessments. However, senior OEDO officials
             agree that all agency offices should implement the PBPM process because it is a
             more structured, thorough examination and prioritization of activities. In addition,
             performance indicators are needed to assess how well support organizations are
             performing. According to management, a PBPM-type review should define the
             true costs of doing business by forcing offices to answer penetrating questions
             such as: ‘What is the minimum cost of doing business at NRC?’ and, ‘Why do we
             need to continue certain low priority functions?’ In addition, for higher ranked or
             required tasks, the question is, ‘Can we do it more efficiently?’

             Agency Overhead and Surcharge Costs Need Scrutiny

             As previously stated, a percentage of the agency’s overall management and
             support and surcharge costs are incorporated into materials licensees’ fees. For
             fee purposes, these costs are allocated to the materials program at a percentage
             equal to the percentage the program receives from the agency’s total budget
             appropriation. Therefore, in order to stabilize or reduce materials fees, it is
             especially important to thoroughly examine these costs.

                      Agency Overhead Costs

             Agency overhead consists of most of the FTE within the Management and
             Support arena, a program’s overhead (indirect) FTE, and general operational
             costs. For fee purposes, Management and Support arena costs are allocated to
             agency programs and to the surcharge based on the percentage of the program




12
     The Office of Human Resources budgets both direct FTE in the Nuclear Materials Safety arena and non-
     direct resources in the Management and Support arena.

                                                   9
                                                                          Review of Materials Licensee Fees

             budgeted resources allocated to each. Additionally, program overhead costs are
             allocated based on the program direct FTE allocated to agency programs and to
             the surcharge.

             In an August 2000 Staff Requirements Memo,(13) the Commission directed the
             CFO to conduct an agency-wide analysis of NRC’s “29% typical overhead” rate
             for the next budget cycle. This study had two objectives: (1) determine and
             compare the types of positions that are considered overhead within the programs
             among the four strategic arenas in order to identify consistencies/
             inconsistencies and trends, and (2) examine governmental and non-
             governmental studies and data on overhead to compare to NRC findings. In
             answering the first objective, the study concluded that NRC classifies overhead
             positions consistently, and that arena overhead rates have been, and are
             projected to, remain fairly stable through FY 2003.

             However, the second objective of the CFO’s study was not adequately
             answered. The study concluded that comparing NRC’s overhead rate to other
             entities could not be accomplished because it would take an intensive effort just
             to reconcile how Federal agencies define and apply overhead. Additionally, it
             concluded that no comparative literature was available. In disagreement with the
             study’s conclusion, a number of agency officials told us that benchmarking the
             agency’s overhead against other Federal agencies could be accomplished by
             establishing the question parameters and then asking other agencies what their
             overhead rates would be given those parameters. NRC’s overhead costs grow
             proportionately with the budget. Because these costs are included as a
             component of the materials fees, an examination of the reasonableness of the
             agency’s overhead rate is a necessary part of controlling agency costs.

                      Surcharge Costs

             Surcharge costs are the costs for activities that do not directly benefit those
             agency licensees who pay the costs through annual fees, such as fee
             exemptions for other Federal entities.(14) As previously stated, NRC’s budget
             recovery requirement, through fee collection, will be reduced by 2 percent a year
             over a 5-year period beginning in FY 2001. Agency financial managers said that
             the increased appropriations the NRC will request from the General Fund each
             year, as an offset to the reduction in fees collected, will be applied to the
             surcharge, effectively relieving the licensees of the surcharge burden by
             FY 2005. owever, OIG found that surcharge costs apportioned to materials
             licensees typically average more than 10 percent of the agency’s total surcharge
             costs. Additionally, surcharge costs could increase as more states attain




13
     COMSECY-00-0030, FY 2002-FY 2003 Budget Proposal, August 24, 2000.
14
     Deeming the requirement to recover these costs from agency licensees as unfair, NRC called on Congress
     to address the perceived inequity. As a result, NRC’s budget recovery requirement has been reduced.

                                                  10
                                                            Review of Materials Licensee Fees

        Agreement State status. Therefore, because any positive impact on fees from
        the eventual 10 percent reduction in NRC’s budget recovery requirement could
        be minimal, the elements included in the surcharge need continual review.

IV. CURRENT MANAGEMENT ACTION

        A tasking memo, dated August 9, 2001, from Chairman Meserve to the
        Executive Director for Operations (EDO) and the CFO, requested an
        assessment of business practices affecting materials fees. The memo indicates
        that NRC should have effective processes for recognizing changes in the
        materials industries in order to adjust NRC resources assigned and ultimately
        billed to the materials licensees. Among other things, the EDO and CFO are
        tasked to:

        [      Examine methods to build cost effectiveness into the regulatory strategy
               for generic activities

        [      Determine what work needs to be done and the minimal levels of effort
               required

        [      Review the management and support services within NMSS, and the
               corollary resources in other support offices and the Regions that support
               the materials and waste programs to ensure that these resources are
               applied in a fashion commensurate with the actual workload in a
               particular program and to identify efficiencies that will reduce program
               costs

        [      Integrate information from recent reviews of the materials program

        [      Consider ways of reducing the administrative costs of the fee program as
               part of developing the FY2002 Fee Rule

        The Chairman has requested that the EDO and CFO provide options for
        addressing these issues by December 31, 2001.

        Based on discussions with senior OEDO, NMSS, and OCFO executives, there is
        disagreement on the intent of the Chairman’s memo regarding the scope of
        activities to be reviewed. On November 21, 2001, another discussion took place
        between the principles involved in this tasking. As of November 30, 2001, there
        has been no action plan developed to respond to the Chairman’s assignment.


V. CONCLUSION

        The number of materials licensees has significantly dropped and is projected to
        decline another 20 percent by FY 2004. With a shrinking base of materials
        licensees to bear the costs of agency operations, annual fees for licensees could
        increase. There have been some reductions, with more projected, in NMSS

                                        11
                                                             Review of Materials Licensee Fees

        direct program FTE budgeted in NRC’s materials arena. However, overall
        expected program direct FTE in the materials arena for offices external to NMSS
        do not include FTE reductions commensurate with a declining number of NRC
        materials licensees. In addition, there are no overall downward adjustments
        proposed to non-direct program resources, even though these costs comprise
        approximately 60 percent of the materials fees. If fees are to be reduced,
        significant reductions in both direct and non-direct costs are needed.

        NRC must ensure that costs assessed to materials licensees bear a reasonable
        relationship to the services provided. However, because the agency’s cost
        accounting process does not directly trace overhead costs to its programs, the
        true costs of NRC’s materials program cannot be identified. Furthermore, there
        has been no systematic, agency-wide evaluation of the efficiency and
        effectiveness of office activities to determine whether they are appropriately
        adjusted to support a smaller materials program.


VI. RECOMMENDATIONS

        OIG recommends that the Chief Financial Officer:

        1.     Continue to develop and implement NRC’s cost accounting capabilities to
               enable the direct tracing of overhead costs to all agency programs.

        and, that the Executive Director for Operations, in coordination with the Chief
        Financial Officer:

        2.     Require NRC offices to conduct the Planning, Budgeting, and
               Performance Management process, or similar disciplined evaluation, to
               determine that their activities are necessary, efficient, and effective in
               support of the agency’s mission.


VII. AGENCY COMMENTS

        At an exit conference on November 7, 2001, agency managers generally agreed
        with the findings and recommendations contained in the draft report. Comments
        were provided by OEDO and OCFO prior to, and subsequent to, the exit
        conference. OIG incorporated suggested changes where appropriate.

        On December 20, 2001, the CFO submitted a written response to our draft report
        (see Appendix D). The CFO had two primary comments: (1) offices have
        scrutinized their budgets and activities through other existing processes and
        progress is being made in implementing the PBPM process, and (2) other
        agency responsibilities that support the materials program are not necessarily
        affected by the reduction in materials licensees. These factors may lead to FTEs
        remaining constant or increasing.


                                        12
                                                             Review of Materials Licensee Fees


VIII. OIG RESPONSE TO AGENCY COMMENTS

         OIG agrees that offices review their budgets and activities and that, in many
         cases, there is not a direct link between the number of materials licensees and
         FTE in support offices. However, the true costs of NRC’s materials program
         cannot be identified through the current cost accounting process. In addition,
         NRC has not completed a detailed, systematic evaluation of all agency activities
         to determine if they are necessary, efficient, and effective. OIG believes that
         enhanced cost accounting and a thorough evaluation of NRC activities will have
         a beneficial impact on materials licensee fees by reducing agency overhead
         costs.




                                         13
                                                                           Review of Materials Licensee Fees
                                                                                                  Appendix A


SCOPE AND METHODOLOGY

             The objective of this review was to determine whether NRC is adjusting its
             resources and operations to reflect the loss of materials licensees.

             To accomplish this objective, OIG interviewed cognizant staff within NRC,
             including staff from the Offices of the Executive Director for Operations, Nuclear
             Material Safety and Safeguards, Human Resources, State and Tribal Programs,
             the Chief Information Officer and the Chief Financial Officer. We met with an
             industry group, Agreement State representatives, agency and non-agency
             members of the National Materials Program Working Group, the Chair of the
             Phase II Byproduct Material Review working group, and attended the annual
             Conference of Radiation Control Program Directors.

             OIG reviewed regulatory and program criteria governing NRC’s collection of fees
             and agency regulation of the Agreement State program. Also, agency FTE and
             budget information from the Controller Resource Database System (CRDS)(15)
             and the 1998-2001 volumes of NUREG-1100, BUDGET ESTIMATES AND
             PERFORMANCE PLAN, were examined.

             This audit was conducted from May 2001 to August 2001 in accordance with
             generally accepted Government auditing standards and included a review of
             management controls related to the objectives of the audit. The major
             contributors to this report were William McDowell, Team Leader; Catherine
             Colleli, Senior Management Analyst, and Yvette Russell, Auditor.




15
     Data for FY 2001 was obtained from the “current” column of CRDS, instead of the “enacted” column.

                                                   14
                                   Review of Materials Licensee Fees




[Page intentionally left blank.]




              15
                                                                             Review of Materials Licensee Fees
                                                                                                    Appendix B

MATERIALS PROGRAM COSTS

             NRC assesses licensees two types of fees: fees for services and annual fees.

             [        Fees for Services: (referred to as ‘direct charges‘ in this report)
                      Licensing and inspection fees, established at 10 CFR Part 170,(16) that
                      are directly attributable to a specific applicant or licensee and are
                      assessed under the authority of IOAA.

             [        Annual fees: (referred to as ‘non-direct costs’ in this report)
                      Charges to licensees, established at 10 CFR Part 171 under OBRA-90,
                      to recover generic and other regulatory costs not recovered through 10
                      CFR Part 170(17) fees.

             According to OCFO, for the materials users class of licensees, the costs for
             inspections, license amendments, and license renewals (which were previously
             recovered un Part 170) are now included in the Part 171 annual fees for
             streamlining purposes. As a result, materials users licensees pay only annual
             fees, with the exception of an application fee billed under 10 CFR Part 170.
             Some Part 171 costs are distributed among all licensees while other Part 171
             costs are spread among only the licensees within a specific class (or subclass)
             of materials license. Therefore, the number of licensees in each class (or
             subclass) is one factor in determining the annual fee obligation to be assessed to
             each licensee in the class or subclass.

             Non-Direct Costs - Definitions

             Non-direct costs are for FTE needed to support direct programs and other
             agency operations. For purposes of this report, non-direct costs will include the
             following three components:

             !        Program Overhead costs - (otherwise known as program indirect costs) -
                      activities that support direct program and staff. Examples of indirect
                      charges include program travel, supervisory and other overhead
                      positions, such as clerical support, and information technology.

             !        Management and Support - (otherwise known as general & administrative
                      costs) - overhead and administrative activities that benefit the whole
                      agency, e.g., policy, financial, legal, information technology, rent, etc.
                      Offices whose costs fall under this category comprise the agency’s
                      Management and Support arena. They include the Offices of the


16
     Part 170 - Fees for Facilities, Materials, Import and Export Licenses, and Other Regulatory Services Under
     the Atomic Energy Act of 1954, as Amended.
17
     Part 171 - Annual Fees for Reactor Licenses and Fuel Cycle Licenses and Materials Licenses, Including
     Holders of Certificates of Compliance, Registrations, and Quality Assurance Program Approvals and
     Government Agencies Licensed by the NRC.

                                                    16
                                                 Review of Materials Licensee Fees
                                                                        Appendix B

    Commission, Executive Director for Operations, Administration, Human
    Resources, Chief Financial Officer, and Chief Information Officer.

!   Surcharge - an agency term for efforts that are not attributable to any one
    class of license. Examples of efforts covered through surcharge costs
    include: international activities, Agreement State oversight and support,
    and fee exemptions for non-profit educational institutions and other
    Federal entities.

    Surcharge is an agency cost distributed among all classes of licensees at
    a percentage equal to the percentage of the remaining NRC budget
    allocated to each class. These costs raise fairness and equity concerns
    because they are for services which do not directly benefit the agency’s
    licensees who pay these costs as part of their annual fees.




                             17
                                                                        Review of Materials Licensee Fees
                                                                                               Appendix C

RECENTLY COMPLETED AGENCY FEE ASSESSMENTS

     The projected loss of an additional 20 percent of materials licensees to future
     Agreement States, and the resulting impact of those losses on materials fees, have
     prompted several agency actions over the last 2 years. The Commission asked staff to
     analyze the future direction of the materials program, analyze costs affecting materials
     fees, and identify how NRC can stabilize or reduce fees charged to a shrinking number
     of materials licensees without compromising the health and safety of the public. A
     summary of the findings pertinent to this review follows:

!    National Materials Program Working Group

     In November 1999, NRC commissioned the National Materials Program Working Group
     (NMPWG) to address the impacts of the increased number of Agreement States and to
     provide advice to the NRC on a “National Materials Program.” The working group’s
     final report,(18) issued in May 2001, reported that, “The continuing shift in licensee
     population has implications for both NRC and Agreement State programs.” For
     example, NRC may find it more difficult to maintain a regulatory infrastructure, and the
     decreasing number of licensees increases the licensee fee burden. Also, NMPWG’s
     report projects a 20 percent decrease in direct resources by FY2004, but very little
     change in other resources charged to materials licensees.

!    SECY-01-0104, Analysis of Costs Affecting Annual Fees for Materials Licenses

     This study, conducted by OEDO and OCFO, examined past and current efforts to
     determine whether costs affecting fees can be reduced without negatively affecting
     public health and safety. The report, dated June 12, 2001, concluded that significant
     reductions in components that make up materials fees (e.g., NMSS resources, agency-
     wide general & administrative activities) would be needed to keep annual fees relatively
     constant. The report also concluded that NRC’s PBPM process provides a mechanism
     to ensure that the materials program is being carried out in an efficient and effective
     manner. It advocates that the PBPM process should be fully implemented for all agency
     programs, including offices in the Management and Support arena, since many of the
     agency’s activities fall under this area.

!    Phase II Byproduct Material Review

     One objective of this working group was to review the nuclear byproduct materials
     program and make recommendations to help control or reduce user fees charged to
     these licensees. The report, issued in August 2001, disclosed that a 20 percent decline
     in materials licensees over the next three years poses a significant challenge in terms of
     users’ fees. In addition, the report states that direct resources in NMSS are projected to
     decline to reflect fewer inspections, licensing, etc. However, the projected decrease in
     direct resources would not be enough to offset an increasing amount of overhead,
     general and administrative costs, and surcharge costs allocated to the byproduct


18
     SECY 99-250, “Options and Recommendations,“ Final Report of the Working Group, Volume I, May 2001.

                                                 18
                                                    Review of Materials Licensee Fees
                                                                           Appendix C



materials program. Additionally, the 2 percent annual reduction in the agency’s
fee recovery requirement will not have a noticeable positive impact because
increases in the fees of up to as much as 18 percent can be expected. These
increases will place a heavy burden on the remaining materials licensees.




                               19
                                        Review of Materials Licensee Fees
                                                               Appendix D

COMMENTS FROM THE CHIEF FINANCIAL OFFICER




                            20
     Review of Materials Licensee Fees
                            Appendix D




21
     Review of Materials Licensee Fees
                            Appendix D




22
